                                             Testimony of 


                          THE HONORABLE TODD J. ZINSER 

                               INSPECTOR GENERAL 

                             U.S. DEPARTMENT OF COMMERCE

                                                before the

         Subcommittee on Federal Financial Management, Government 

           Information, Federal Services, and International Security, 

          Committee on Homeland Security and Governmental Affairs, 

                             United States Senate 


                                   Tuesday, February 23, 2010


                          The 2010 Census: Update of
                       Schedule, Cost, Risk Management,
                         and Communications Activities

Mr. Chairman, Ranking Member McCain, and Members of the Subcommittee:

Thank you for inviting us to testify today on the Census Bureau’s recent activities in
preparation for this year’s decennial count. In just over 4 weeks, millions of census forms
will be mailed to households across the country, asking that they be filled out and
returned on Census Day, April 1—just 37 days from now.

On February 16 we released our third Quarterly Report to Congress 1 on the status of the
2010 Decennial Census, covering October through December 2009. The Quarterly
Report discusses our most recent findings in the areas of schedule, cost, and risk
management. My testimony will highlight these areas, plus an overview of the Census
Bureau’s Integrated Communications Campaign, through which the bureau is attempting
to increase the mail response rate. Higher mail response rates will decrease the need for
costly follow-up of nonrespondents. According to the Census Bureau, every percentage
point increase in the mailback rate saves about $85 million dollars of follow-up costs.

With a life-cycle cost estimate now projected to total $14.7 billion, the 2010 Census is a
massive undertaking made up of many moving parts. The bureau must integrate 44

1
    2010 Census: Quarterly Report to Congress, Report OIG (Office of Inspector General)-19791-3, February
    2010. OIG reports are available on our Web site: www.oig.doc.gov.
separate operations (with a total of some 9,400 program- and project-level activities). The
start of the largest operation, nonresponse follow-up (NRFU), is less than 90 days away.
Estimated to cost well over $2 billion, NRFU is the most costly operation of the decennial,
requiring census takers to visit every household that does not return a census form and
record answers to the form’s questions.

Temporary bureau management staff must run 494 local offices and manage over
600,000 temporary workers, while recruiting substantially more. The success of NRFU
hinges on how effectively Census controls the enormous NRFU workload and workforce
and, as discussed later in this testimony, it must do so using a Paper-Based Operations
Control System (PBOCS) with less functionality than planned and currently experiencing
performance problems. PBOCS is essential for efficiently making assignments to
enumerators, tracking enumeration forms, and reporting on the status of the operation.

While my testimony identifies serious issues currently faced by the Census Bureau, we
are mindful of the unparalleled challenge of the decennial and the extraordinary efforts
being made by the bureau’s dedicated staff to achieve a successful outcome.

In brief, although much of the bureau’s plan is on track, NRFU efficiency and accuracy are
at some risk—because of PBOCS—and final decennial costs remain uncertain. As I will
discuss, important issues remain—issues that the bureau agrees must be addressed, but it
has not yet adequately done so. The bureau will need to act quickly to address these
issues.

Our Quarterly Report discusses the following:

•      The current status of PBOCS, whose reduced capabilities and performance will be key
       factors in Census field operations;
•      The need to closely monitor nonresponse follow-up costs, given the overruns and
       inefficiencies found in the completed address canvassing operation;
•      The need to contain the cost of field operations, which requires strong budget
       estimation capability;
•      A reduced cost estimate for nonresponse follow-up, somewhat offset by an increase
       in the estimate for the vacant/delete check 2 operation;
•      Remaining risk management activities; and
•      The uncertainty of the final decennial cost, whose expenses will largely be dictated by
       the level of mail response, worker productivity, and the effectiveness of PBOCS.




2
    After nonresponse follow-up is completed, the vacant/delete check operation verifies the status of each
    housing unit classified by an enumerator as vacant or deleted.

                                                        2
THE CENSUS SCHEDULE DEPENDS ON THE CAPABILITIES AND PERFORMANCE OF
PBOCS, WHICH IS UNDERGOING COMPRESSED DEVELOPMENT AND IS
EXPERIENCING SERIOUS TECHNICAL PROBLEMS

PBOCS  is essential to managing data collection and quality control for ten discrete
enumeration operations, including the large, door-to-door nonresponse follow-up (NRFU).
This system is needed, for example, to assign several enumerators to difficult-to-
complete assignment areas, to confirm that questionnaires that were checked-out to the
field have been checked-in back to the office, and ensure that workload completion rates
are on track.

As shown in Table 1, PBOCS is being deployed in phases, prior to the start of each field
operation it is to support. So far, it has been deployed for three of ten operations; another
deployment for three more operations was scheduled for yesterday; and deployment for
NRFU, the largest and most complex operation, is scheduled for 27 days from today. Yet
system development and testing have fallen substantially behind schedule, resulting in
less functionality being deployed and an increased likelihood of local Census Office staff
encountering technical problems during operations. Further straining the project is that
development staff already working to capacity must now contend with resolving any
problems that surface during those operations for which PBOCS has already been
deployed. And in recent weeks, Census has encountered major hardware and software
issues affecting system performance that have prompted Census officials to call in
executives and senior technical troubleshooters from the companies that provide PBOCS
hardware and software components.

   Table 1. PBOCS Deployment and Field Operations Schedule
                   as of February 16, 2010
                                                            Operation       Operation
Deployment       Operation                                  Start           End
                 Remote Alaska Enumeration                  January 25      April 30
January 19       Group Quarters Advance Visit               February 1      March 19
                 Update/Leave                               March 1         March 26
                 Remote Update/Enumerate                    March 22        May 29
February 22      Update/Enumerate                           March 22        May 29
                 Enumeration of Transitory
                 Locations                                  March 19        April 12
March 1          Group Quarters Enumeration                 April 1         May 21
March 22         Nonresponse Follow-up (NRFU)               May 1           July 10
June 4           Vacant Delete Check                        July 24         August 25
July 13          Field Verification                         August 6        September 3

Source: U.S. Census Bureau 2010 data


                                              3
PBOCS  development started late in the decennial cycle, partially due to a change in plans
from using handheld computers to the use of paper for collecting respondent data. An
independent assessment of the system requested by Census found that developing PBOCS
would take two to three times longer than the time available due to its size, and adding
pressure to the bureau.

Information on the problems surrounding PBOCS is not new; we reported on these
challenges last October and have recently briefed the Census Bureau Director on our
efforts to monitor PBOCS. Our observations are consistent with those of the independent
assessment team convened by the Director, as well as reporting by internal bureau staff. It
is clear that the Director and bureau are engaged on this issue, and are taking swift
corrective action.

In addition, our Quarterly Report contains recommendations on actions we feel are
necessary to address these problems. Start dates for Census field operations are fixed. If
PBOCS is not ready or if additional actions are not taken, field operations could be
adversely affected, resulting in increased cost and reduced accuracy of the population
count. In one example, due to performance issues, PBOCS limits concurrent users to 2,500
network-wide—or currently about five concurrent users per local Census office. Yet the
operational need is estimated to be over three times that: as many as 8,000 network-wide
(about 16 per local office).

As we testified before this Subcommittee last October, with population counts for
apportionment due to the President by December 31, 2010, the decennial census is the
epitome of a schedule-driven program—with all of its attendant risks and consequences.
Issues have included rushed and incomplete requirements specifications; cut corners in
program design, development, and testing; massive cost growth; and increased
operational and quality risks.

As our new Quarterly Report to Congress details, the testing of PBOCS is being
compressed to meet the schedule. However, the inevitable tradeoff is that errors may not
be found until the system is used in Census operations and new errors may be introduced.
Further, the testing is being conducted by headquarters staff, while the field staff, who
will be the system’s primary users, have not had the opportunity to test the system under
realistic conditions before it is put into operation. As of February 11, PBOCS development
was 15 days behind schedule, testing was 14 days behind, and there were 39 critical
defects. This reflects some improvement in the development and test schedules, but an
increase in critical defects, which were up from 26 in mid-December.

Given schedule delays and fixed deadlines, PBOCS users are being forced to accept more
limited system functionality than was expected. For example, one limitation under
consideration is that managers at local Census offices may not be able to use PBOCS to
help bring in additional enumerators to work an assignment area during nonresponse
follow-up; instead, paper records may be needed to track these split assignments. This
limitation would be problematic when managing thousands of enumerators working on
thousands of assignment areas in close to 500 local offices nationwide. Another example

                                             4
of the reduction in PBOCS capability is that 50 of the planned 435 management reports are
being eliminated. With system capabilities still uncertain, training materials have also
been delayed. Further, now that PBOCS has been deployed and is in use for certain
operations, it becomes more complicated to maintain consistency in the development,
testing, and operational environments.


Recent Operational Load Tests Indicated Adequate Network Capacity but
Revealed PBOCS and Other IT Performance Problems

Operational load tests last December of decennial Census networks suggested that
capacity is adequate, yet revealed serious performance and functionality problems with
other components of the IT infrastructure. In particular, significant problems were found
with the PBOCS application servers as well as with the Decennial Applicant, Personnel,
and Payroll System (DAPPS). This system, needed to support applicant tracking and
processing, recruiting reports, and personnel and payroll processing for the massive
temporary workforce, had four times more problems than PBOCS. While the Census Chief
Information Officer has redirected the bureau’s senior engineers and brought in vendor
expertise in an attempt to resolve these problems, PBOCS and DAPPS operational
performance issues have remained. Staff in local Census offices are experiencing slow
response times and outages. According to the technical team, both PBOCS and DAPPS are
underpowered; the team has recommended substantially increasing the number of
computer servers for each application.

Overall, then, PBOCS and other essential IT elements are proceeding under very difficult
conditions. Specifically:

•   Time is short, deployment for nonresponse follow-up is 4 weeks away, and staff are
    working at capacity, yet PBOCS development continues to be behind schedule;
•   Critical software errors are increasing, and system performance is not meeting
    operational needs; and
•   With operations already underway, staff must resolve technical problems encountered
    in the field, while continuing with system development.

Accordingly, Census officials must address the following questions to minimize the
impact of the difficulties being experienced with PBOCS:

•   What PBOCS capabilities can Census deliver with high confidence?
•   What PBOCS capabilities will have to be scaled back, and what will be the impact?
•   What is the plan for developing a consistent set of workarounds so that all local
    Census offices handle capabilities eliminated from PBOCS in the same way?
•   How will the bureau ensure that it can provide adequate technical support to the field
    to maintain operations when problems inevitably arise?


                                             5
Because time is at a premium, Census must quickly realign PBOCS development and
testing efforts, placing greater emphasis on minimizing the impact of the system’s
limitations during operation. We include the following recommendations to Census in our
quarterly report:

•   Foremost, senior executives with the authority to set priorities—such as reallocating
    resources to where they are most needed, resolving conflicting priorities, and making
    major changes to the decennial schedule or plan—must closely monitor PBOCS
    activities, and ensure that steps are taken expeditiously to reduce operational risk.
•   To accomplish this, Census will have to streamline development and testing by
    further reducing planned PBOCS capabilities to the essentials required for the most
    important enumeration operations.
•   The bureau must likewise focus on developing procedural workarounds—
    contingency plans—for capabilities that cannot be implemented.
•   Census must enhance or augment its technical support staff and procedures to
    expeditiously resolve problems in the field.

We will continue monitoring PBOCS development and its use, along with contingencies
put into place to compensate for any shortfalls.


CENSUS MUST CLOSELY MONITOR NONRESPONSE FOLLOW-UP COSTS
GIVEN OVERRUNS AND INEFFICIENCIES FOUND IN THE COMPLETED
ADDRESS CANVASSING OPERATION

Wide variances between budgeted and actual costs do not generate confidence in the
Census Bureau’s budgeting and cost containment process for large-scale field operations.
Our analysis of address canvassing budget overruns revealed wide disparities in spending
among local Census offices. Census Bureau headquarters formulated a total budget of
$356 million for address canvassing in 2009. This amount was allocated among the 151
early local Census offices—based on the type of area, such as urban or rural, covered by
each office. Following the operation, Census reported that address canvassing overspent
its budget by $88 million (25 percent). The two major cost drivers of the operation were
wages and reimbursement for miles driven by temporary employees (listers) to
assignment areas. For production, one-third of the offices exceeded their wage budgets
and one-half exceeded their mileage budgets. For the quality control operation, 82
percent of the offices exceeded both their wage and mileage budgets.

Our review of address canvassing wage and travel data revealed several inefficiencies
that Census managers should be aware of in managing 2010 field operations. These
included excessive miles driven by temporary employees and training costs. Using
bureau data, we analyzed the number of miles reported driven per hour compared with
the total number of hours worked by address canvassing employees. We found that 604
employees spent the majority of their time driving instead of conducting field work, and

                                             6
of those, 23 employees spent 100 percent or more of their time driving. This analysis
suggests that some employees may have over-reported the number of miles driven. While
the number of employees with questionable reimbursements is very small compared with
the overall universe of 140,000 employees involved in this operation, the potential exists
for this problem to be compounded because upcoming fieldwork operations will involve
significantly more temporary employees than did address canvassing. Census Bureau
managers should monitor mileage reimbursements carefully during upcoming
enumeration operations, and verify the validity of those reimbursement claims that appear
excessive before they are paid.

Our analysis of Census data found that the bureau spent a great deal of money on training
for the amount of work it received. For example, over 10,000 employees earned over
$300 apiece for attending training, but did not perform work for the Census Bureau. An
additional 5,000 employees received the same money and worked only a single day—or
less. It may be that some employees, after being trained, decided that they did not want to
do this kind of work; others may have been deemed unfit. Nevertheless, the costs were
substantial—not only what was paid directly to employees, but the other training costs as
well.

Census expenses and projections are a moving target, as might be expected of an
operation whose many parts are already progressing on several fronts. Such inefficiencies
as we found in the areas of wage, travel, and training costs are the kind for which Census
should develop effective internal controls and ensure that managers scrupulously follow
these controls in future operations.


COST CONTAINMENT IS ESSENTIAL FOR FIELD OPERATIONS, BUT REQUIRES
STRONG BUDGET ESTIMATION CAPABILITY

The ability to produce valid budget estimates is essential for cost containment. The 25-
percent cost overrun for address canvassing indicates that either the budget for this
operation was unrealistically low or that cost containment for the operation was poorly
managed. In contrast, Census spent only about 59 percent of its Group Quarters
Validation 3 budget, somewhat more than $41 million out of a field budget of over $70
million. Inaccuracies of this magnitude in estimated budgets, combined with wide
variances among early local Census offices in address canvassing costs, indicate
significant weaknesses in the bureau’s budget estimation capabilities.

The important lesson for the Census Bureau now is that with the nonresponse follow-up
operation set to begin soon—with three times the number of employees and offices than
were involved with address canvassing—the bureau’s revised budget estimate needs to be
as accurate as possible so that the operation’s final cost does not exceed the amount
budgeted, including contingency. With $7.4 billion in funding from FY 2009, FY 2010,
and the American Recovery and Reinvestment Act to be expended for the decennial in
3
    The Group Quarters Validation operation is aimed at verifying information from each one of the potential
    group quarters nationwide.

                                                       7
FY 2010, poor estimating will not be an acceptable justification for any later request for
supplemental funding.

Under the Census Bureau Director’s leadership, Census is, in fact, reexamining its NRFU
budget. It recently provided a new estimate totaling $2.33 billion. While this is $410
million less than the bureau’s earlier estimate, it does not factor in the productivity
reductions that may result from a PBOCS with significantly reduced capabilities and
performance.

In addition, any reductions that may be achieved in NRFU are likely to be partially offset
by an estimated increase of $137 million for the vacant/delete check operation. The
vacant/delete check workload, originally estimated at 8 million cases, has now been
revised to 14.5 million cases. This results in an estimated cost increase from $345 million
to $482 million.

The bureau identified two components as areas of the greatest concern due to the high
uncertainty and high impact on cost: workload (a function of the level of mail response)
and staff productivity. To these we would add the unknown impact on operations of a
PBOCS with reduced functionality and performance.



THE CENSUS BUREAU IS MAKING PROGRESS WITH ITS RISK REDUCTION
ACTIVITIES, BUT CONTINGENCY PLANS REMAIN UNFINISHED
Census’s risk management plan establishes processes and procedures for monitoring
decennial risks, and identifies staff responsible for implementing them. Each program-
level risk—i.e., one that may affect overall program cost, schedule, and technical and
compliance objectives—must have a plan that defines mitigation strategies and specific
time frames, along with staff to implement them. The risk management plan also requires
contingency plans for addressing certain risks triggered by a missed date or specific
event, and these plans are to be completed well in advance of the expected trigger. The
bureau’s risk management program represents a significant improvement over the 2000
decennial, which lacked a formal risk management process.

While the bureau is making progress with its risk reduction activities, the bulk of its
contingency plans remain unfinished, and contingencies for PBOCS have yet to be clearly
defined and documented.

Census’s Risk Review Board (RRB) continues to oversee risk management activities and
update its “risk register.” As of December 31, 2009, the register contained 25 program-
level risks, each rated high (likely), medium (somewhat likely), or low (unlikely). The




                                             8
distribution of these risks has not changed for the period October through December
2009; it is the same as for the preceding quarter: 8 high- , 14 medium- , and 3 low-level
risks. 4

In addition, the RRB has been completing contingency plans to guide the bureau in
addressing problems that might arise should mitigation plans and activities aimed at
program risks fail. Progress on contingency planning has been made during the last
quarter, but time is running short; nine of the 13 plans are not yet final. Significant work,
then, remains to be completed. This is especially critical in light of the difficulties with
PBOCS, so that alternative plans will be ready to be put in motion if needed.

We reviewed four contingency plans that have been completed to date, and they appear
adequate. The four plans are:

•      IT   Security Breach
•      Loss of Confidential Data
•      Continued Operations of Critical Infrastructure During Disasters
•      H1N1  Influenza Affecting Regional Census Centers and Local Census Office
       Activities

A contingency plan will be triggered if its mitigation activities are no longer effective,
prompting the risk to materialize. When a trigger—such as a date or an event—occurs,
appropriate Census staff will assess impacts to the decennial schedule and resources, take
necessary actions to resolve problems, and monitor their effect on operations. For
example, if an H1N1 influenza outbreak were to impact a local census office, Census
managers could hold employee replacement training, limit visitors to the office, and
monitor the staff illness rate.


PERSONNEL COSTS ARE THE PRIMARY COST DRIVERS AND WILL BE
AFFECTED BY THREE KEY UNKNOWNS

The final decennial cost remains uncertain; three key factors could have significant cost
impact. The bureau identified the mail response rate as having the potential to have the
greatest impact, with enumerator productivity also a major cost driver. An additional
issue, the capabilities and performance of PBOCS for NRFU—and the bureau’s ability to
implement effective workarounds—will also determine ultimate efficiency, schedule, and
thus final cost.



4
    One risk was closed (Address Canvassing and Group Quarters Validation operational control system
    solutions) and two were added (H1N1 influenza affecting regional Census centers and local Census Office
    activities, and H1N1 influenza and similar contagious illnesses affecting nonregional Census centers and
    nonlocal Census Office activities).

                                                      9
Census has undertaken an extensive communications campaign with a major objective of
increasing the mail response rate. The extent to which the public will respond to the
initial Census questionnaire is a critical cost driver and a major unknown factor. If mail
response is lower, the NRFU workload and associated expense will be correspondingly
higher.


Integrated Communications Campaign Intended to Increase Census Response
and Accuracy

The more Census questionnaires that are returned by households, the less costly the
Census Bureau’s nonresponse follow-up operation will be—the largest and most
expensive of the bureau’s operations. Census awarded the Integrated Communications
Campaign contract to a company called DraftFCB, Inc., to increase public awareness of
the decennial’s importance. The specific goals of the campaign are to increase the mail
response rate, improve accuracy and reduce the undercounting of traditionally hard-to-
count populations, and improve cooperation with enumerators.

The communications campaign is consistent with congressional direction in the
statements accompanying the FY 2009 and FY 2010 departmental appropriations acts.
The statement accompanying the FY 2009 act includes the following language: “Paid
media is critical to promoting increased participation in the 2010 Decennial, particularly
in minority and other hard-to-count populations.”

Further, this statement directs Census to submit a comprehensive communication plan in
its FY 2010 budget request to address paper NRFU, but the FY 2010 request to Congress
contains no such plan. Our review of the request showed that it included performance
measures for paid advertising, as follows:

       Measure: Achieve predetermined “reach and frequency” results for three
       phases of paid advertising by September 30, 2010.

       1) For the Awareness Phase, reach 95% of the population at least 5
       additional times through paid advertising.

       2) For the Motivation Phase, reach 95% of the population at least 11
       additional times.

       3) For the Support NRFU [nonresponse follow-up] phase, reach the
       lowest responding population at least 2 additional times.

The Census Bureau credits the communications outreach of the 2000 census with
increasing the response rate. Census believes that the results in 2000 would have been
significantly worse without the paid advertising program. It attributes paid advertising
and public relations with reversing the downward trend in mail response rates compared
to previous decennials. In 1970, the response rate was 78 percent; by 1990, it had
dropped to 65 percent. According to Census, had the trend continued, the response rate in

                                            10
2000 would have been about 61 percent. However, at 67 percent, it was slightly higher
than the 1990 response rate.

The Census Bureau will spend a total of $338 million on the communications campaign,
up from the $204 million that was spent in 2000. The total includes an additional $115
million provided by the American Recovery and Reinvestment Act of 2009. The bureau
used the additional funds to procure a road tour, additional paid media, and promotional
material for 28 languages (14 more than originally planned). Table 1 shows the plan for
allocating the communications campaign budget. Census has already obligated $329
million of the $338 million total.

             Table 2. Summary of $338-million DraftFCB
       Integrated Communications Campaign Contract Budget
                        (millions of dollars)

General Contract Costs
  Labor                                                                           $ 62.4
  Production                                                                        36.7
  Partnership Support                                                               27.2
  Public Relations/Events/Road Tour                                                 26.6
  Census in Schools                                                                 13.3
  Promotional Materials for Other Census Divisions                                  10.9
  Management Reserve (all tasks) and Future Obligations                              9.5
  Rapid Response & Media Management Reserve                                          7.4
  Research                                                                           5.5
  Web site                                                                           3.5
  Travel                                                                             2.0
                                                                        Total    $205.0
Paid Media
  Mass Communication Base Plan                                                    $ 60.8
  Hispanic                                                                          25.5
  Black (African American, Black African, & Afro-Caribbean)                         23.0
  Asian                                                                             13.5
  American Indian/Alaska Native                                                      3.8
  Puerto Rico                                                                        2.4
  Emerging Audiences (speakers of Arabic and Eastern
      European languages)                                                            2.0
   Native Hawaiian & Other Pacific Islanders                                         1.1
   New Legacy Languages (European languages including French, German,
        Greek, and Italian)                                                         0.9
                                                                        Total    $133.0
Grand Total                                                                     $338.0
Source: OIG analysis of U.S. Census Bureau data

                                                  11
DraftFCB is assisted by partner advertising agencies with expertise in specific racial and
ethnic markets. It uses 12 subcontractors to assist with the advertising, the Census in
Schools program, public relations/events, partnership support, promotional materials, and
recruitment. We focus here on paid media because it is the component of the campaign
receiving the highest amount of funding.

Census used a systematic process in designing the paid media and the broader
communications campaign, and worked with its contractors to determine the paid media
funding allocations to the targeted audiences. It built its paid media budget plan with 46
percent of its funding going to the mass communication base plan, which is designed to
reach the estimated 84 percent of the population that consumes English-language media,
including any English-speaking race or ethnic group. It targeted the remaining 54 percent
of its budget to hard-to-count audiences, including Hispanic, Black, Asian, American
Indian/Alaska Native, Puerto Rican, Emerging (Arabic- , Russian- , and Polish-speaking
segments), and Native Hawaiian and Other Pacific Islanders. Census relied on DraftFCB
and its subcontractors to identify the specific media outlets to carry its message about the
2010 decennial to the base plan and targeted hard-to-count audiences.

The communication campaign has three phases. The Awareness Phase, which formally
began in January, and lasts until the middle of March, seeks to notify the public of the
upcoming Census and provide education about its purpose and benefits. Next, the
Motivation Phase begins, running until the end of April. Here, Census seeks to encourage
the public to immediately respond to the questionnaire. By that time, all of the forms
should have been mailed. The Cooperation Phase is last, running from the end of April to
the end of June, and promotes cooperation with enumerators during the nonresponse
follow-up process.

During each phase the effectiveness of the communications campaign will be monitored
in terms of public awareness, shifts in attitudes and beliefs toward the decennial, and
reported participation. Bureau officials told us that this will be done by such means as a
nightly tracking poll, an Internet tracking survey, and monitoring real-time questionnaire
mail response rates. To address potential areas of concern, bureau officials budgeted a
$7.4- million reserve ($6 million of it in Recovery Act funds) to respond—through paid
media and other communications activities—to conditions such as a natural disaster,
which might confuse respondents about the continuation of the Census or to encourage
participation in areas in which response is lagging. It has also budgeted $5.5 million as a
general management reserve, which can be used where and when needed to address
problems with accomplishing task orders. Additional printing needed for Census in
Schools is an example of the use of reserves.

Census oversees DraftFCB’s execution of each task, and ensures that the contractor
deliverables are accepted by the Census 2010 Publicity Office prior to making payment.
In addition, bureau officials are relying on DraftFCB to ensure that the thousands of media
agreements are settled. Accordingly, the bureau needs to provide sufficient management
and oversight to ensure successful contract execution.



                                             12
OIG OVERSIGHT PLAN FOR DECENNIAL OPERATIONS

We will continue to monitor the bureau’s progress—on PBOCS and on other key decennial
activities. In addition, over the next several months, about 100 members of our staff will
be participating in what is for us an unprecedented effort in scope and resource
commitment to go on the road and observe Census workers in action. Such oversight,
while Census activities are ongoing, will allow us to immediately observe successes and
any problems that might arise, and notify the bureau without delay.
The appendix to this statement provides a discussion of our approach to overseeing this
year's operations.
Mr. Chairman, this completes my prepared remarks, and I would be happy to respond to
questions from you or any other Members of the Subcommittee.




                                           13
APPENDIX



                       OFFICE OF INSPECTOR GENERAL
                  2010 DECENNIAL CENSUS OVERSIGHT PLAN
The Census Bureau has identified 44 decennial operations for 2010. These operations
span several years and entail providing support, establishing where to count, collecting
and integrating respondent information, providing results, measuring coverage, and
performing analysis and research for the 2020 Census. In FY 2010 we anticipate covering
aspects of 20 of these operations, including deploying substantial numbers of staff to
observe eight Census field operations. This work will also inform our oversight of the
2020 census.

OIG resources devoted to the 2010 Decennial Census over the coming year will involve
almost 100 members of our staff at a given point in time. Details of our planned staffing
deployment over the course of the calendar year are provided in Figure 1, below. The
variability of resource deployment is related to the number and extent of the field
operations conducted by Census. During this period, OIG plans to expend approximately
35 full-time-equivalent employees (FTEs) at an estimated cost of about $5.8 million for
the review of the decennial census. OIG will oversee Census Bureau field and
headquarters management of operations, field enumeration activities, information
technology (IT) systems and the security of personally identifiable information, and
internal controls over payroll.




                                           14
APPENDIX


Field Activities

Our oversight of field activities will include deploying staff to selected local Census
offices nationwide to observe whether activities are being conducted in accordance with
Census procedures (for example, whether the Census questionnaire is being administered
properly; whether map and address list updating is being completed correctly, where
applicable; etc.) and local Census office practices. We will notify the Census Bureau
promptly of any problems needing immediate attention. We will summarize our
observations and findings in a final report, to be completed in FY 2011. This capping
report will provide our summary assessment of the overall efficacy and efficiency of the
2010 Census enumeration. This and subsequent reports will provide lessons learned to
aid in planning for the 2020 Census.

In FY 2009 we observed Address Canvassing and Group Quarters Validation. During
FY 2010 field operations we intend to have a presence in every enumeration activity. In
our planning for this major deployment of OIG personnel, we analyzed multiple data
sources to ascertain the areas in which the Census Bureau may face its greatest
demographic and operational hurdles. The following are six decennial operations that we
will be observing:

•   Update/Leave: In areas in which many homes do not receive mail at a city-style
    address, enumerators canvass assignment areas to deliver a Census questionnaire to
    each housing unit. At the same time, they update the address list and maps. This
    method is also used in selected collection blocks within mailout/mailback areas,
    where mail delivery may be a problem, such as apartment buildings where mail is left
    in common areas.

•   Update/Enumerate: Enumerators canvass assignment areas to update residential
    addresses, including adding living quarters that were not included on original address
    listing pages, update Census Bureau maps, and complete a questionnaire for each
    housing unit. This occurs in communities with special enumeration needs and in
    which many housing units may not have house-number-and-street-name mailing
    addresses, similar to update/leave.

•   Enumeration of Transitory Locations: Enumerators visit transitory locations, such as
    campgrounds and hotels, to enumerate their residents.

•   Service-based Enumeration: This focused, 3-day enumeration provides an
    opportunity for people living on the street or in shelters to be included in the Census.

•   Nonresponse Follow-up (including Vacant/Delete): Enumerators visit addresses for
    which the Census Bureau had no questionnaire or telephone response. Enumerators
    collect information about the household residents as of April 1, 2010.

•   Coverage Follow-up: This telephone operation attempts to resolve erroneous
    enumerations and omissions.

                                             15
APPENDIX



Our field observations will focus on a judgmental sample of 34 of 151 early local Census
offices that supported address canvassing operations. These are split into smaller local
Census offices for enumeration activities; our sample equals 113 of 494 local Census
offices. The areas highlighted on the following map (Figure 2) indicate the boundaries of
local Census offices within our sample. OIG staff will observe Census operations in
selected areas within those locations.

           Figure 2. Local Census Office Boundaries within
                 Sample to be Observed by OIG Staff




To ensure nationwide coverage, we initially selected at least one Early Local Census
Office per Census region. Our selections were based on the bureau’s demographic
measures of enumeration difficulty, operational factors such as blocks with large
populations, and significant socioeconomic changes such as high foreclosure rates or high
growth rates. Next, we identified a smaller sample conveniently located near OIG offices.
The remaining selections were included to ensure adequate representation of population
density and specific hard-to-count populations. For example, we intentionally included
the rural Mississippi Delta and the hurricane-affected Galveston, Texas, areas. We
balanced the sample by including several areas that were not considered hard to count. A
listing of the Early Local Census Offices in our sample follows:




                                           16
APPENDIX



Anchorage, AK                                    St. Louis City, MO
Flagstaff, AZ                                    Jackson, MS
Phoenix Central, AZ                              Meridian, MS
Los Angeles Downtown, CA                         Las Vegas, NV
Stockton, CA                                     Bronx Southeast, NY
Lakewood, CO                                     Queens Northwest, NY
DC East, DC                                      Syracuse, NY
Miami East, FL                                   Canton, OH
Sarasota, FL                                     Oklahoma City, OK
Atlanta South, GA                                Charleston, SC
Honolulu, HI                                     Rapid City, SD
Chicago Far North, IL                            Houston Central, TX
Chicago Near South, IL                           Salt Lake City, UT
Frederick, MD                                    Richmond, VA
Seat Pleasant, MD                                Tacoma, WA
Portland, ME                                     Eau Claire, WI
Detroit West, MI                                 Charleston, WV



Other Reviews

In addition to deploying staff to observe enumeration activities, we will be conducting
reviews in the following areas:

•   Evaluating and Monitoring Decennial Systems: We plan to evaluate key IT decennial
    systems for development and operational risks that may affect critical decennial
    operations and the accuracy of the population count. We will assess the paper-based
    operations control system and management workarounds required to address its
    anticipated shortcomings, starting with the Group Quarters Advanced Visit operation,
    as well as the Decennial Applicant, Personnel and Payroll System. Other systems that
    may be reviewed include the response processing system, the universe control and
    management system, and the Decennial Response Integration System (DRIS).

•   Safeguarding Decennial Respondent Confidential Data: We will assess controls to
    protect the confidentiality, integrity, and availability of electronic decennial
    respondent information.

•   Census’s Ability to Detect/Respond to Cyber Attacks: We will evaluate the extent and
    effectiveness of Census’s monitoring of its decennial information systems for
    malicious activity.

•   2010 Enumeration Payroll and Progress Review: In our ongoing audit of address
    canvassing payroll for the decennial Census, we are verifying the accuracy and
    integrity of payroll processing, including a review of supervisory approval, overtime

                                            17
    compliance, and time-and-expense reports. The overall purpose of this review will be
    to monitor the cost and progress of the 2010 Census field operations and verify the
    accuracy and integrity of the payroll—with emphasis placed on identifying irregular
    operations, assessing management staffing and deployment decisions, and identifying
    fraud.

•   Early 2020 Planning: Planning for the 2020 Census has already started, and we
    intend to track progress throughout the decade. Weaknesses in the bureau’s cost
    estimating techniques and its failure in planning and managing the acquisition of
    handheld computers for field data collection were major contributors to the eventual
    cost overruns and high level of operational risk. A related factor was the
    misalignment of budgets, schedules, requirements, testing, and acquisitions leading
    up to the 2010 Census. We will monitor early 2020 planning to identify more cost-
    effective methods for obtaining a high-quality address file and conducting
    enumeration, and promote more effective and transparent decennial planning and
    budgeting.




                                           18
